CERTIFICATE OF WORD COUNT
NO. 20-1199
Students for Fair Admissions, Inc.,
Petitioner,
v.
President and Fellows of Harvard College,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the OKLAHOMA AND THIRTEEN
OTHER STATES AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER contains 5988 words, including
the parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
March 31, 2021

SCP Tracking: Mansinghani-313 NE Twenty-First Street-Cover Cream

